GIBSON DUNN

Gibson, Dunn & Crutcher LLP
1050 Con necticu t Avenue , N.W.
Washington , DC 20036-5306
Tel 202.955.8500
www .gibsondunn .com

Miguel A. Estrada

Direct +1 202.955.8257
Fax +1 202.530 .9616

MEstrada@gibsondunn.com

March 5, 2020
VIA EFILE AND FIRST-CLASS MAIL
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N .E.
Washington, D. C . 20534

Re :

Bolivarian Republic of Venezuela, et al. v. Crystal/ex International Corporation, No.
19-1049

Dear Mr. Harris :
I am counsel of record for respondent Crystallex International Corporation in the
above-captioned case. The petition for a writ of certiorari in this case was docketed on
February 24, 2020, and the opposition is currently due on March 25 , 2020. Pursuant to
Supreme Court Rule 30.4, I respectfull y request a 30-day extension of time, to and including
April 24, 2020, within which to file brief in opposition.
This extension is requested to allow adequate time to consider and, if necessary,
respond to any briefs of amici curiae filed in this case. Petitioners were supported by an
amicus curiae in the court of appeals, and we anticipate that Petitioners will seek additional
amicus support in this Court.

Respectfully submitted,

?:;.t1~~~ .
cc: Donald B. Verrilli, Jr.
Counsel for Petitioner

Beij ing • Brussels• Centu ry City• Da ll as • Denver• Dubai • Frankfurt · Hong Kong · Houston • London • Los Angeles · Munich
New York• Orange County · Pa lo Alto • Pari s · San Franc isco· Sao Paulo · Singapore · Washington, D.C.

